~

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Petition for a Writ of Certiorari in Leevan
Roundtree v. State of Wisconsin, was sent via Next Day
Service to the U.S. Supreme Court, and 3 copies were
sent via Next day and e-mail service to the following
parties listed below, this 4th day of June, 2021:
Joshua L. Kaul
Attorney General of Wisconsin
Sarah L. Burgundy
Assistant Attorney General
Wisconsin Department of Justice
Post Office Box 7857
Madison, Wisconsin 53707-7857
(608) 261-8118
burgundysl@doj.state.wi.us
Counsel for Respondent
Frederick R. Yarger
Counsel of Record
Adrianne K. Rosenbluth
Wheeler Trigg O'Donnell LLP
370 17th Street, Suite 4500
Denver, CO 80202
(303) 244-1800
yarger@wtotrial.com
Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on June 4, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

6/.'t!Lt

No~Public

----.

[seal]

AMY TRIPLETI MORGAN

Attorney at Law
Notary Public, State of Ohio
My Commission Has No Expiration
Date. Section 147.03 0.R.C.

